Audit of Department of State Compliance With Physical/Procedural Security Standards at Selected High Threat Level Posts (AUD-SI-13-32)
Search:SearchOIG HomeOfficesReports and PublicationsContact UsHotline
You are in: Reports, Publications, & Testimony > Audit Reports > Security and Intelligence
Audit of Department of State Compliance With Physical/Procedural Security Standards at Selected High Threat Level Posts (AUD-SI-13-32)
June 30, 2013
Audit of Department of State Compliance With Physical/Procedural Security Standards at Selected High Threat Level Posts (AUD-SI-13-32, June 2013)
The subject report was issued by the Department of State’s (Department) Deputy Inspector General to the Acting Assistant Secretary, Bureau of Diplomatic Security; Assistant Secretary, Bureau of Overseas Buildings Operations; Acting Assistant Secretary, Bureau of African Affairs; and Director, Office of Management Policy, Rightsizing and Innovation. The report presents the Office of Inspector General’s (OIG) audit of Department compliance with physical and procedural security standards at selected high threat level posts.
OIG conducted this audit to determine to what extent new embassy and consulate compounds at five overseas posts that have high threat levels complied with current physical and procedural security standards and whether post management officials used available authorities to effectively implement the post security program.
OIG conducted physical security compliance reviews at the five posts and found that posts were not always in compliance with current physical security standards and that common physical and procedural security deficiencies occurred among the posts reviewed. OIG also found that the Chiefs of Mission in two of the selected posts used their National Security Decision Directive 38 authority to increase post personnel levels in alignment with their mission strategic plans. However, personnel levels increased beyond or near the compounds’ intended capacities, and at one post, this increase in personnel negatively affected the implementation of the post security program.
In this report, OIG made 24 recommendations to the Department intended to address deficiencies. Of the 24 recommendations, four are closed. Six recommendations are resolved, and the Department is taking action to close the recommendations. Fourteen recommendations are unresolved and require further management action before they can be resolved and closed. OIG also provided the Chiefs of Mission at the selected posts with a postâspecific “Outline for Action” report detailing deficiencies that the posts could or should address in a timely manner. The Chiefs of Mission at the posts promptly took action to address or mitigate many of the deficiencies reported. Of 38 recommendations that OIG made in the “Outline for Action” reports, 28 have been closed and 10 remain open. For the majority of recommendations that remain open, posts responded that plans are underway to remedy the deficiencies.
USA.gov
Contact UsEmail this PageSearch the OIG Web Site
This site is managed by the Office of Inspector General and the Bureau of Public Affairs as a source of information from the Office of Inspector General. External links to other Internet sites should not be construed as an endorsement of the views or privacy policies contained therein.
External Link PolicyPrivacy PolicyFOIACopyright InformationWhite HouseOther U.S. Government Information